                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: 11201003                                                                     Page 1 of 1



        A proactive review found an individual 1 apparently held two other positions during the period he
        served as PI for two SBIR Awards. 2 We opened an investigation to determine if the individual
        violated SBIR award conditions that require the PI to be primarily employed by the small
        business receiving the SBIR award.

        When interviewed, the PI stated he was primarily employed with the small business during the
        SBIR award. He acknowledged that he held two other positions with other companies. 3
        However, both positions were part-time and did not pay a salary.

        The NSF Program Officer4 expected the PI to spend at least 51% ofhis work time with the small
        business during the period of the SBIR Award. However, the program officer did not know if
        the PI worked at other companies during the SBIR award. The program officer had no issues
        with the amount of time the PI worked on the SBIR awards.

         We did not substantiate that the PI violated SBIR award conditions regarding primary
         employment. Nor did we find evidence that funds were fraudulently used. Accordingly, this
         investigation is closed.




NSF OIG Form 2 (11/02)
